               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Timeliness of Mail Processing at the
       Hartford, CT Processing and
            Distribution Center

                       Audit Report




                                         September 30, 2013

Report Number NO-AR-13-009
                                                                   September 30, 2013

                                               Timeliness of Mail Processing at the
                                                      Hartford, CT Processing and
                                                                Distribution Center

                                                        Report Number NO-AR-13-009


BACKGROUND:
The U.S. Postal Service has over            the delayed mail was due to two major
270 plants that conduct mail processing     operational issues: (1) insufficient
operations. Excessive delayed mail          planning and scheduling to
adversely affects the Postal Service        accommodate mail volumes especially
customers. The Postal Service               during holiday periods, and (2) mail
considers mail delayed when it is not       arriving too late at the plant to be timely
processed or dispatched in time to meet     processed. Consequently, service
its established delivery day. An analysis   scores declined and there was an
of delayed mail during Quarters 1 and 2,    increased risk that some customers
fiscal year (FY) 2013, identified the       would seek alternative delivery or
Hartford Processing and Distribution        advertising methods that could result in
Center (P&DC) as a facility with high       revenue loss. We estimated about
delayed mail volume. The Hartford           $144,000 of Postal Service revenue is at
P&DC is located in the Connecticut          risk.
Valley District of the Northeast Area.
                                            WHAT THE OIG RECOMMENDED:
Our objective was to determine if mail at   We recommended the district manager,
the Hartford P&DC was processed in a        Connecticut Valley District, adjust
timely manner.                              planning and scheduling to
                                            accommodate mail volumes, especially
WHAT THE OIG FOUND:                         during holiday periods and ensure mail
The Hartford P&DC experienced               arrives earlier at the plant so that it can
difficulties processing First-Class and     be processed timely.
Standard Mail in a timely manner during
Quarters 1 and 2, FY 2013. For              Link to review the entire report
example, the Hartford P&DC delayed
34.4 million pieces of mail and had the
highest amount of delayed First-Class
Mail and the second highest amount of
delayed Standard Mail as compared to
similar size facilities.

About 37 percent of the delayed mail
was the result of severe weather, which
included Hurricane Sandy in
October 2012, and a blizzard in
February 2013. However, the majority of
September 30, 2013

MEMORANDUM FOR:            KIMBERLY J. PETERS
                           DISTRICT MANAGER
                           CONNECTICUT VALLEY DISTRICT


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Timeliness of Mail Processing at the Hartford,
                           CT Processing and Distribution Center
                           (Report Number NO-AR-13-009)

This report presents the results of our audit of the Timeliness of Mail Processing at the
Hartford, CT Processing and Distribution Center in the Connecticut Valley District of the
Northeast Area (Project Number 13XG037NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Timeliness of Mail Processing at the Hartford, CT                                                                  NO-AR-13-009
  Processing and Distribution Center


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Delayed Mail Trends and Site Comparisons ................................................................... 2

Other Matters - Mail Condition Reporting ........................................................................ 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Other Impact ............................................................................................. 11

Appendix C: First-Class Delayed Mail Rankings ........................................................... 12

Appendix D: Standard Delayed Mail Rankings .............................................................. 13

Appendix E: Management's Comments ........................................................................ 14
Timeliness of Mail Processing at the Hartford, CT                                       NO-AR-13-009
 Processing and Distribution Center


Introduction

This report presents the results of our self-initiated audit of the timeliness of mail
processing at the Hartford, CT Processing and Distribution Center (P&DC) (Project
Number 13XG037NO000). Our objective was to determine if mail at the Hartford P&DC
was processed in a timely manner. See Appendix A for additional information about this
audit.

Excessive delayed mail adversely affects U.S. Postal Service customers. The Postal
Service considers mail delayed when it is not processed or dispatched to meet its
established delivery day. A review of the Office of Inspector General (OIG) Performance
and Risk Information Systems (PARIS) risk model1 identified the Connecticut Valley
District as a district with high delayed mail volume. Within that district, our analysis
identified the Hartford P&DC as the facility with the most delayed mail volume.

Additionally, as part of the Postal Service’s network realignment process, the Southern
Connecticut P&DC will be consolidated into the Hartford P&DC. This consolidation will
result in increased mail volume at the Hartford P&DC and therefore, increases the need
to correct operational deficiencies to ensure all mail is timely processed.

                                          Figure 1. The Hartford P&DC




Source: U.S. Postal Service OIG photograph dated June 24, 2013.




1
    The PARIS risk model identifies districts at risk from an operational standpoint.
                                                               1
Timeliness of Mail Processing at the Hartford, CT                                                              NO-AR-13-009
 Processing and Distribution Center



Conclusion

The Hartford P&DC experienced difficulties processing First-Class and Standard Mail in
a timely manner during Quarters 1 and 2, fiscal year (FY) 2013. For example, the
Hartford P&DC delayed 34.4 million out of 704 million pieces of mail, and had the
highest amount of delayed First-Class Mail and the second highest delayed Standard
Mail as compared to similar size facilities.

About 37 percent of the delayed mail was the result of severe weather, which included
Hurricane Sandy in October 2012, and a blizzard in February 2013. However, the
majority of the delayed mail was due to two major operational issues: (1) insufficient
planning and scheduling especially during holiday periods, and (2) mail arriving too late
at the plant to be timely processed. Consequently, service scores declined and there
was an increased risk that some customers would seek alternative delivery or
advertising methods that could result in revenue loss. We estimated about $144,000 of
Postal Service revenue is at risk. See Appendix B for our calculation of revenue at risk.

Delayed Mail Trends and Site Comparisons

Hartford P&DC experienced a significant increase of delayed mail volume during
Quarters 1 and 2, FY 2013. Delayed mail volume at the Hartford P&DC increased from
15.9 million mailpieces in Quarters 1 and 2, FY 2012, to 34.4 million mailpieces in
Quarters 1 and 2, FY 2013. This represented an increase in delayed mail of more than
116 percent and represented almost 5 percent of total first handling piece 2 (FHP)
volume (see Table 1).

                             Table 1. Hartford P&DC Delayed Mail Trends,
                                  Quarters 1 and 2, FYs 2012 to 2013

                                                                          Difference                Percent Change
     Delayed Mail           FY 2012               FY 2013               FYs 2012 - 2013             FYs 2012 - 2013
        Trends            Quarters 1 & 2        Quarters 1 & 2           Quarters 1 & 2              Quarters 1 & 2
     Delayed
     Volume                    15,880,989            34,356,268                  18,475,279                      116.3%
     Delayed as a
     Percent of
     FHP                              3.2%                  4.9%                         1.7%                     53.1%
    Source: Enterprise Data Warehouse (EDW) and Mail Condition Reporting System (MCRS).

In addition, for Quarters 1 and 2, FY 2013, Hartford P&DC had over 5.5 million delayed
First-Class™ mailpieces ranking Hartford as the P&DC with the most delayed First-
Class Mail as compared to similar-sized facilities (see Appendix C).



2
 A FHP is a letter, flat, or parcel that receives its initial distribution at a Postal Service facility. FHP records mail
volume in the operation where it receives its first distribution handling.

                                                               2
Timeliness of Mail Processing at the Hartford, CT                              NO-AR-13-009
 Processing and Distribution Center


Similarly, the Hartford P&DC had over 28.8 million delayed Standard Mail® pieces
ranking Hartford as the P&DC with the second most delayed Standard Mail as
compared to similar size facilities (see Appendix D).

The Postal Service is required to process mail timely. The September 2005 Postal
Service Strategic Transformation Plan states that, “The Postal Service will continue to
provide timely, reliable delivery to every address at reasonable rates.”

There were three main causes that affected the amount of delayed mail at the Hartford
P&DC: (1) severe weather, (2) insufficient planning and scheduling especially during
holidays, and (3) mail arriving too late at the plant to be processed in a timely manner.

The Hartford P&DC was affected by two significant weather events during Quarters 1
and 2, FY 2013. The first was Hurricane Sandy in October 2012 (Figure 2) and the
second was a major blizzard in February 2013 (see Figure 3). These two events
resulted in the delay of 13 million mailpieces or about 37 percent of the delayed mail
during Quarters 1 and 2, FY 2013. During these storms, the Governor of Connecticut
issued travel bans ordering the closure of roads in the state. These extreme weather
events were beyond the control of management.

                           Figure 2. Hurricane Sandy (October 2012)




          Source: Hartford Courant newspaper, dated October 29, 2012.




                                                      3
Timeliness of Mail Processing at the Hartford, CT                            NO-AR-13-009
 Processing and Distribution Center


                               Figure 3. Blizzard of February 2013




                   Source: Gazettenet.com.

The second cause of delayed mail during this period was insufficient planning and
scheduling especially during the holiday periods. Of the 34.4 million delayed mailpieces
in Quarters 1 and 2, FY 2013, 6.6 million pieces or 19 percent were delayed near
national holidays (see Chart 1). This indicates that planning and scheduling to
accommodate additional mail volume needs improvement.

               Chart 1. Severe Weather and Holiday Delayed Mail Volume
                               Quarters 1 and 2, FY 2013



                        W = Severe Weather Event
                        H = Holiday Period




 Source: MCRS and Postal Holiday Calendar.


                                                    4
Timeliness of Mail Processing at the Hartford, CT                                                           NO-AR-13-009
 Processing and Distribution Center



The third cause of delayed mail was mail arrived at the Hartford P&DC too late to meet
processing standards. For example, by Postal Service standards, 80 percent of the mail
should be cancelled by 8 p.m. Our analysis showed that during Quarters 1 and 2,
FY 2013, Hartford P&DC never achieved this standard as they only cancelled about
52 percent of the mail by 8 p.m. This may have had a negative impact on Hartford
P&DC’s ability to process its mail timely. Management needs to ensure the mail arrives
earlier through better coordination with delivery stations, collection box pickups, large
mailers, and transportation throughout the network.

Service scores declined and there is an increased risk of future revenue loss as
dissatisfied customers may seek alternative delivery or advertising methods. Delayed
mail at the Hartford P&DC adversely affected service to its customers. For example,
during Quarters 1 and 2, FY 2013, the Hartford P&DC generally experienced service
score declines in the External First-Class Measurement System (EXFC) 3 categories of
overnight, 2-day, and 3-day service (see Table 2). This table shows that in Quarter 2,
FY 2013, only 88.48 percent of mail with a 3-day service standard was delivered on
time. This represented a decrease in service of 4.79 percent as compared to the same
period last year, which was the largest degradation of all the scores.

                            Table 2. Quarters 1 and 2, FYs 2012 and 2013
                              EXFC Service Scores (Percent On-Time)


                                                                                                  Difference
      EXFC                    FY 2012                             FY 2013                       FYs 2012 - 2013
     Service
      Scores        Quarter 1 Quarter 2                 Quarter 1         Quarter 2         Quarter 1         Quarter 2
    Overnight        96.76     96.55                     96.27             95.44              -0.49             -1.11
    2-Day            92.53     94.83                     92.76             93.45              0.23              -1.38
    3-Day            88.51     93.27                     88.42             88.48              -0.09             -4.79
Source: EDW.

Delayed mail increases the risk of lost revenue as customers may seek alternative
delivery methods. We estimate that about $144,000 of revenue is at risk. See Appendix
B for our calculation of revenue at risk.

Other Matters - Mail Condition Reporting

Internal controls over the MCRS 4 could be improved. This can be achieved by having
the manager of In-Plant Support provide oversight for the mail count instead of the
manager, Distribution Operations. This would ensure greater independence and

3
  The EXFC is designed to measure service performance from a customer perspective.
4
  MCRS is a repository for information related to facility conditions and provides a daily snapshot of mail conditions
including delayed mail at the facility. Information related to the facility conditions such as the mail count is entered into
MCRS. This information is available to management officials at all levels for analysis, forecasting, and planning.

                                                             5
Timeliness of Mail Processing at the Hartford, CT                                                 NO-AR-13-009
 Processing and Distribution Center


maintain continuous accuracy of the counts. During our audit, management took
corrective action and the clerk who counts the mail reports to the manager, In-Plant
Support.

Recommendations

We recommend the district manager, Connecticut Valley District:

1. Adjust planning and scheduling to accommodate mail volumes, especially during
   holiday periods.

2. Ensure mail arrives earlier at the plant so that it can be processed timely.

Management’s Comments

Management agreed with the recommendations. Regarding recommendation 1,
management agreed to adjust planning and scheduling to accommodate holiday mail
volumes by reviewing same period last year volumes and projected volumes. The Run
Plan Generator will also be used to determine machine staffing requirements.

With regard to recommendation 2, management agreed to ensure mail arrives earlier at
the plant so that it can be processed timely. Some strategies include improving the
collection mail arrival profile, ensuring the carriers return from the street in a timely
manner, and monitoring performance via the 24-hour clock indicators. See Appendix E
for management’s comments, in their entirety. 5

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




5
 Management did not provide an implementation date for corrective action in their response. Through subsequent
discussion, management agreed to an implementation date of October 1, 2014.

                                                        6
Timeliness of Mail Processing at the Hartford, CT                                                            NO-AR-13-009
 Processing and Distribution Center


                                     Appendix A: Additional Information

Background

Mail processing is an integrated group of activities 6 required to sort and distribute mail
for dispatch and eventual delivery. Post offices, stations, and branches send outgoing
(originating) mail to P&DCs and processing and distribution facilities for processing and
dispatch for a designated service area. P&DCs report directly to area offices on mail
processing matters. They also provide instructions on the preparation of collection mail,
dispatch schedules, and sort plan requirements to associate offices and mailers. The
Postal Service has over 270 plants with mail processing operations.

We divided the facilities that process mail into seven plant groups ranked by FY 2010
annual mail volume. The Group 1 plants are the largest, and the Group 7 plants the
smallest (see Table 3). Our report focused on delayed mail volumes at Group 2 plants.

                  Table 3. Plant Groups Identified Based On FY 2010 Mail Volume

                Group               Number of Plants                 Mail Volume Range (in millions)
                              1                    43                               1,300 and above
                              2                    45                                    765 to 1,299
                              3                    46                                      476 to 764
                              4                    44                                      340 to 475
                              5                    44                                      221 to 339
                              6                    40                                      136 to 220
                              7                    34                                        0 to 135
       Source: OIG and EDW.

The Hartford P&DC is in the Connecticut Valley District of the Northeast Area.

Objective, Scope, and Methodology

Our objective was to determine if mail at the Hartford P&DC was processed in a timely
manner. To meet our objective, we conducted interviews, performed analysis of mail
volumes, workhours, and machine run-times. We also analyzed trends and conducted
observations at the facility.

We conducted this performance audit from May through September 2013 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our


6
    Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.

                                                               7
Timeliness of Mail Processing at the Hartford, CT                            NO-AR-13-009
 Processing and Distribution Center


observations and conclusions with management on August 20, 2013, and included their
comments where appropriate.

To conduct this audit, we relied on computer-processed data maintained by Postal
Service operation systems, which included the MCRS, the EDW System, Web
Complement Information System, Web End of Run System, and the Management
Operating Data System. We did not test the validity of controls over these systems.
However, we verified the accuracy of the data by confirming our analysis and results
with Postal Service managers. We determined that the data were sufficiently reliable for
the purposes of this report.




                                                    8
Timeliness of Mail Processing at the Hartford, CT                           NO-AR-13-009
 Processing and Distribution Center


Prior Audit Coverage

                                                        Final Report    Monetary
            Report Title             Report Number          Date         Impact
  Timeliness of Mail Processing       NO-AR-12-010       9/28/2012     $17,330,587
  at Processing and Distribution
  Centers
  Report Results:
  We found in FY 2012, the Postal Service made significant progress reducing the
  amount of delayed mail at the 43 largest P&DCs in its network. They also made
  improvements in service performance scores as measured by the Intelligent Mail
  Accuracy and Performance System. Through Quarter 3, FY 2012, about 1.4 billion
  pieces of mail have been delayed while about 3.5 billion pieces were delayed in
  FY 2011. Much of this decline can be attributed to management emphasis on
  delayed mail and expanded use of the Intelligent Mail barcode (IMb). We identified
  several issues that contributed to mail delays, including improper color-coding,
  inaccurate reporting, underutilization of automation, floor congestion, incomplete
  operating plans, and a lack of mail inventory visibility. We recommended the Postal
  Service evaluate operations, including consolidations, to reduce the amount of
  delayed mail in the network and ensure that field personnel are properly trained in
  the color-coding of Standard Mail, as well as the counting and reporting of delayed
  mail in accordance with policies. We also recommended the Postal Service increase
  investment in as well as increase employee access to the IMb tracking system, or
  other tools, to assist management with identifying potential mail processing
  problems that could result in delayed mail. Management agreed with our
  recommendations.

  Timely Processing of Mail at         NO-AR-12-008      9/18/2012           None
  the Pittsburgh, PA Processing
  and Distribution Center
  Report Results:
  We found the Pittsburgh P&DC experienced difficulties with timely processing of all
  mail during FY 2011, the bulk of it being Standard Mail. Among the 43 largest Postal
  Service facilities, the Pittsburgh P&DC ranked second highest, with more than
  12 percent delayed mail volume. The primary causes for the excessive delayed mail
  were underuse of mail processing equipment, poor mail flow, and failure to follow
  operating procedures. We recommended the Postal Service adjust workhours,
  assignments, and other operational requirements to ensure the Pittsburgh P&DC
  processes mail timely as compared to similar-sized sites. We also recommended the
  Postal Service increase the capacity and throughput of tray sorters and expand the
  windows of operation. Further, we recommended the Postal Service improve mail
  flow throughout the facility and train employees to ensure proper color-coding of
  Standard Mail, according to Postal Service policy. Management agreed with our
  recommendations.


                                                    9
Timeliness of Mail Processing at the Hartford, CT                           NO-AR-13-009
 Processing and Distribution Center



                                                         Final Report    Monetary
            Report Title             Report Number           Date         Impact
  Timely Processing of Mail at        NO-AR-11-008        9/13/2011        None
  the Richmond, VA Processing
  and Distribution Center
  Report Results:
  We found the Richmond P&DC experienced difficulties with timely processing of
  mail during FY 2010 and Quarter 1, FY 2011. Delayed mail volume rose from
  22.6 million pieces to 54.2 million pieces over a 2-year period. The causes of the
  excessive delayed mail were inadequate staffing and supervision, low mail
  throughput on machines, and failure to consistently color-code arriving mail. Other
  causes included not accurately identifying and reporting delayed mail and mail
  damage caused by poor packaging. We recommended the Postal Service promptly
  assess the current mail volume and adjust workhours, assignments, sort plans,
  transportation, and other operational requirements to ensure the Richmond P&DC
  meets customer and service commitments. Management agreed with our
  recommendations.




                                                    10
Timeliness of Mail Processing at the Hartford, CT                                                     NO-AR-13-009
 Processing and Distribution Center


                                        Appendix B: Other Impact

               Recommendation                 Impact Category                      Amount
                     1                        Revenue at Risk 7                    $144,096

To calculate total revenue at risk, we conservatively estimated that 1 percent of delayed
mail during Quarters 1 and 2, FY 2013, and during FY 2012, is at risk of diversion to
methods of delivery outside the Postal Service. We determined that 605,389 mailpieces
or $144,096 of the revenue associated with the delayed mailpieces is at risk of loss.

                                  Mail Classification                        Amount
                                           8
                          First-Class Mail                                    $ 36,944
                          Standard Mail9                                      107,152
                                                                 Total       $144,096




7
  Revenue that the Postal Service is at risk of losing for not providing timely delivery. For example, when a mailer,
dissatisfied over mail delivery, seeks alternative solutions for services provided by the Postal Service.
8
  We conservatively estimated the revenue at risk for First-Class mailers selecting alternative delivery methods as
1 percent of total delayed First-Class Mail by the average revenue per mailpiece of about 44 cents (8,351,785 x .01 =
83,517.85 x .442345 = $36,944).
9
  We conservatively estimated the revenue at risk for mailers selecting alternative delivery methods as 1 percent of
total delayed Standard Mail by the average revenue per mailpiece of about 21 cents (52,130,496 x .01 = 521,304.96
x .205546 = $107,152).

                                                         11
Timeliness of Mail Processing at the Hartford, CT                                                     NO-AR-13-009
 Processing and Distribution Center


                          Appendix C: First-Class Delayed Mail Rankings
                          Quarters 1 and 2, FY 2013 Similar Size Facilities

                                                               First-Class        Percentage of Total
                                                                Delayed           Delayed First-Class
               Rank                  Facility                  Mailpieces             Mailpieces
                 1                                                  5,525,876                     19.05%
                 2                                                  3,046,469                     10.50%
                 3                                                  2,932,886                     10.11%
                 4                                                  2,836,736                      9.78%
                 5                                                  2,662,513                      9.18%
                 6                                                  1,403,825                      4.84%
                 7                                                  1,325,115                      4.57%
                 8                                                  1,127,677                      3.89%
                 9                                                    935,439                      3.22%
                10                                                    857,577                      2.96%
                11                                                    738,170                      2.54%
                12                                                    581,726                      2.01%
                13                                                    512,105                      1.77%
                14                                                    496,729                      1.71%
                15                                                    447,085                      1.54%
                16                                                    439,424                      1.51%
                17                                                    414,912                      1.43%
                18                                                    414,118                      1.43%
                19                                                    368,642                      1.27%
                20                                                    291,085                      1.00%
                21                                                    267,922                      0.92%
                22                                                    235,380                      0.81%
                23                                                    216,149                      0.75%
                24                                                    200,889                      0.69%
                25                                                    161,635                      0.56%
                26                                                    140,355                      0.48%
                27                                                    106,682                      0.37%
                28                                                     98,420                      0.34%
                29                                                     53,679                      0.19%
                30                                                     48,693                      0.17%
                31                                                     41,660                      0.14%
                32                                                     29,786                      0.10%
                33                                                     15,954                      0.05%
                34                                                     11,707                      0.04%
                35                                                      7,484                      0.03%
                36                                                      6,365                      0.02%
                37                                                      5,754                      0.02%
                38                                                      2,784                      0.01%
                39                                                        303                      0.00%
                40                                                          0                      0.00%
                41                                                          0                      0.00%
                42                                                          0                      0.00%
                43                                                          0                      0.00%
                44                                                          0                      0.00%
                45                                                          0                      0.00%
            Totals                                                 29,009,710                    100.00%
           Source: EDW, Quarters 1 and 2, FY 2013.


10
     Hartford P&DC experienced a significant increase of delayed mail volume during quarters 1 and 2, FY 2013.

                                                          12
Timeliness of Mail Processing at the Hartford, CT                                                     NO-AR-13-009
 Processing and Distribution Center



                           Appendix D: Standard Delayed Mail Rankings
                          Quarters 1 and 2, FY 2013 Similar Size Facilities

                                                                                    Percentage of Total
                                                           Standard Delayed          Delayed Standard
               Rank                Facility                   Mailpieces                Mailpieces
                 1                                                 29,984,173                      8.95%
                 2                                                 28,807,531                      8.60%
                 3                                                 23,410,392                      6.99%
                 4                                                 23,122,329                      6.90%
                 5                                                 21,459,573                      6.41%
                 6                                                 16,084,278                      4.80%
                 7                                                 11,991,409                      3.58%
                 8                                                 11,105,877                      3.32%
                 9                                                 10,165,770                      3.04%
                10                                                  9,793,498                      2.92%
                11                                                  9,761,897                      2.91%
                12                                                  8,887,361                      2.65%
                13                                                  8,282,169                      2.47%
                14                                                  8,097,894                      2.42%
                15                                                  7,675,719                      2.29%
                16                                                  7,590,284                      2.27%
                17                                                  7,520,496                      2.25%
                18                                                  7,332,850                      2.19%
                19                                                  7,043,559                      2.10%
                20                                                  6,976,187                      2.08%
                21                                                  6,664,523                      1.99%
                22                                                  6,584,243                      1.97%
                23                                                  6,504,505                      1.94%
                24                                                  6,034,883                      1.80%
                25                                                  5,431,642                      1.62%
                26                                                  4,690,220                      1.40%
                27                                                  3,746,470                      1.12%
                28                                                  3,161,350                      0.94%
                29                                                  3,145,346                      0.94%
                30                                                  3,099,973                      0.93%
                31                                                  3,089,353                      0.92%
                32                                                  2,861,279                      0.85%
                33                                                  2,557,658                      0.76%
                34                                                  2,349,286                      0.70%
                35                                                  1,623,393                      0.48%
                36                                                  1,407,226                      0.42%
                37                                                  1,209,141                      0.36%
                38                                                  1,162,862                      0.35%
                39                                                  1,050,635                      0.31%
                40                                                    986,917                      0.29%
                41                                                    955,565                      0.29%
                42                                                    609,480                      0.18%
                43                                                    462,135                      0.14%
                44                                                    214,817                      0.06%
                45                                                    191,224                      0.06%
            Totals                                                334,887,372                   100.00%
           Source: EDW, Quarters 1 and 2, FY 2013.

11
     Hartford P&DC experienced a significant increase of delayed mail volume during quarters 1 and 2, FY 2013.

                                                          13
Timeliness of Mail Processing at the Hartford, CT               NO-AR-13-009
 Processing and Distribution Center



                            Appendix E: Management's Comments




                                                    14
Timeliness of Mail Processing at the Hartford, CT        NO-AR-13-009
 Processing and Distribution Center




                                                    15
Timeliness of Mail Processing at the Hartford, CT        NO-AR-13-009
 Processing and Distribution Center




                                                    16
Timeliness of Mail Processing at the Hartford, CT        NO-AR-13-009
 Processing and Distribution Center




                                                    17
Timeliness of Mail Processing at the Hartford, CT        NO-AR-13-009
 Processing and Distribution Center




                                                    18
Timeliness of Mail Processing at the Hartford, CT        NO-AR-13-009
 Processing and Distribution Center




                                                    19
